REAL PARTY IN INTEREST’S
SUPPLEMENTAL APPENDIX

1a
IN THE 252nd DISTRICT COURT
JEFFERSON COUNTY, TEXAS
————
Cause No. 10-10213-A
————
EX PARTE
JOSEPH COLONE
Applicant
————
ORDER AND CERTIFICATE
Having considered Mr. Colone’s Application for
Out-of-State Subpoena Seeking Production of
STRmixTM Source Code and Related Documents, the
Court hereby GRANTS that motion and certifies to
all judges of the courts of record in the State of
California that the production of the materials listed
below by the witness, Custodian of Records for GitHub
and/or GitHub general counsel Tyler Fuller, is
material and necessary for the administration of
justice in this State.
This Court therefore requests an order directing
the witness(es) to produce the listed materials for
review electronically at the Akron, Ohio, office of the
firm Brennan Manna Diamond, consistent with the
terms of this Court’s Protective Order issued November
21, 2019, beginning on the 24 day of February 2020, at
11:00 AM EST o’clock, through the 25 day of February,
2020.
At the appointed time and place, the witnesses
shall produce: (1) A time-limited copy of the

2a
STRmix v2.3.07 software; (2) The STRmixTM source
code for v2.3.07; (3) the STRmixTM User’s Manual;
(4) STRmixTM Implementation and Validation Guide;
(5) STRmixTM Installation Manual; (6) STRmixTM
developmental validation records (not including underlying data) including test scripts, gap analysis documents, risk identification documents (the latter two
items being for a more recent version of STRmixTM,
v2.5.11, as gap analysis and risk identification documents do not exist for v2.3.07); (7) Change Request
forms; and (8) Release and Testing Reports for
v2.3.07. As set forth in this Court’s Protective Order,
all the items may be electronically transferred except
for the source code, which will be reviewed in the
Akron office of Brennan Manna Diamond.
TM

The witness’s reasonable costs associated with the
production of the listed materials shall be reimbursed
up to but not exceeding the amount of $4,000 dollars.
ORDERED AND SIGNED on this 3 day of January,
2020.
/s/ K. Michael Mayes
Judge K. Michael Mayes
Sitting by assignment
252nd Criminal District Court
Jefferson County, Texas
I hereby certify that the Honorable K. Michael Mayes,
whose signature is affixed to the foregoing certificate,
is the qualified Judge appointed to preside over
this matter in the 252nd Criminal District Court of
Jefferson County, Texas, and was such judge at the
time he signed said certificate.
/s/ K. Holmes
Clerk of the Court
of Jefferson County, Texas

3a
I hereby certify that K. Holmes, whose signature is
affixed to the foregoing certificate, is the regularly
elected and [KMM] qualified Clerk of the District
Court of Jefferson County, Texas, and was such Clerk
at the time s/he signed such certificate.
/s/ K. Michael Mayes
Judge K. Michael Mayes
Sitting by assignment
252nd Criminal District Court
Jefferson County, Texas

4a
SUBP-035
ATTORNEY OR PARTY WITHOUT ATTORNEY FOR COURT
(Name, State Bar number, and address):
USE ONLY

Marshall M. Searcy (Bar No. 169269)
Quinn Emanuel Urquhart
& Sullivan LLP
865 S. Figueroa St., 10th Fl.
Los Angeles, CA 90017
TELEPHONE NO.: 213-443-3000
FAX NO.: 213-443-3100
E-MAIL ADDRESS: marshallsearcy@
quinnemanuel.com
ATTORNEY FOR
(Name): Joseph Colone
Court for county in which discovery is to be
conducted: San Francisco
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF San Francisco
STREET ADDRESS: 400 McAllister St,
MAILING
ADDRESS: 400 McAllister St,
CITY, STATE, San Francisco, CA
94102
AND ZIP CODE:
BRANCH NAME: San Francisco

Superior Court
Court in which action is pending:

Jefferson County Courthouse
Name of Court: 252nd State
District Court
STREET ADDRESS: 1085 Pearl Street
MAILING
ADDRESS:
CITY, STATE,
AND ZIP CODE:
COUNTRY:
PLAINTIFF/
PETITIONER:
DEFENDANT/
RESPONDENT:

1085 Pearl Street
Beaumont, TX
77701
USA
Ex Parte
Joseph Colone

CALIFORNIA
CASE
NUMBER
(if any assigned
by court):

5a
SUBPOENA FOR PRODUCTION
OF BUSINESS RECORDS
IN ACTION PENDING
OUTSIDE CALIFORNIA

CASE
NUMBER
(of action
pending
outside
California):

10-10213-A
THE PEOPLE OF THE STATE OF CALIFORNIA, TO
(name, address, and telephone number of deponent, if
known):
GitHub Inc. 88 Colin P. Kelly Jr. Street, San
Francisco, CA 94107
1. YOU ARE ORDERED TO PRODUCE THE
BUSINESS RECORDS described in item 3, as
follows:
To (name of deposition officer): Marshall M. Searcy III
On (date): 02/23/2020

At (time): 9:00 am

Location (address): 50 California St., 22nd Fl.

San Francisco, CA
Do not release the requested records to the deposition
officer prior to the date and time stated above.
a.  by delivering a true, legible, and durable
copy of the business records described in
item 3, enclosed in a sealed inner wrapper
with the title and number of the action,
name of witness, and date of subpoena
clearly written on it. The inner wrapper
shall then be enclosed in an outer envelope
or wrapper, sealed, and mailed to the
deposition officer at the address in item 1.
b.  by delivering a true, legible, and durable
copy of the business records described in
item 3 to the deposition officer at the
witness’s address, on receipt of payment in

6a
cash or by check of the reasonable costs of
preparing the copy, as determined under
Evidence Code section 1563(b).
c. 

by making the original business records
described in item 3 available for inspection
at your business address by the attorney’s
representative and permitting copying at
your business address under reasonable
conditions during normal business hours.

2. The records are to be produced by the date and time
shown in item 1 (but not sooner than 20 days after
the issuance of the deposition subpoena, or 15 days
after service, whichever date is later). Reasonable
costs of locating records, making them available or
copying them, and postage, if any, are recoverable
as set forth in Evidence Code section 1563(b). The
records must be accompanied by an affidavit of the
custodian or other qualified witness pursuant to
Evidence Code section 1561.
3. The records to be produced are described as follows
(if electronically stored information is demanded,
the form or forms in which each type of information
is to be produced may be specified):
 Continued on Attachment 3 (use form MC-025).
4. Attorneys of record in this action or parties without
attorneys are (name, address, telephone number,
and name of party represented):
 Continued on Attachment 4 (use form MC-025).
5. If you have been served with this subpoena as a
custodian of consumer or employee records under
Code of Civil Procedure section 1985.6 and a
motion to quash or an objection has been served
on you, a court order or agreement of the parties,

7a
witnesses, and consumer or employee affected
must be obtained before you are required to
produce consumer or employee records.
6.  Other terms or provisions from out-of-state
subpoena, if any (specify):

 Continued on Attachment 6 (use form MC-025).
DISOBEDIENCE OF THIS SUBPOENA MAY BE
PUNISHED AS CONTEMPT BY THIS COURT.
YOU WILL ALSO BE LIABLE FOR THE SUM OF
$500 AND ALL DAMAGES RESULTING FROM
YOUR FAILURE TO OBEY.
Date issued:

[SEAL]

JAN 31 2020
(TYPE OR PRINT NAME)

/s/ VANESSA WU
(SIGNATURE OF
PERSON
ISSUING SUBPOENA)

CLERK OF THE COURT
(TITLE)

8a
PROOF OF SERVICE OF SUBPOENA FOR
PRODUCTION OF BUSINESS RECORDS
1. I served this Subpoena for Production of Business
Records In Action Pending Outside California by
personally delivering a copy to the person served
as follows:
a. Person served (name):
b. Address where served:
c. Date of delivery:

d. Time of delivery:

e. Witness fees and mileage both ways
(check one):
(1)  were paid. Amount......$
(2)  were not paid.
(3)  were tendered to the witness’s public
entity employer as required by
Government Code section 68097.2.
The amount tendered was (specify):
$
f. Fee for service: .......................$
2. I received this subpoena for service on (date):
3.  I also served a completed Proof of Service of
Notice to Consumer or Employee and Objection
(form SUBP-025) by personally delivering a
copy to the person served as described in 1 above.
4. Person serving:
a.  Not a registered California process server
b.  California sheriff or marshal
c.  Registered California process server

9a
d.  Employee or independent contractor of a
registered California process server
e.  Exempt from registration under Business
and Professions Code section 22350(b)
f.  Registered professional photocopier
g.  Exempt from registration under Business
and Professions Code section 22451
h.

Name, address, telephone number, and, if
applicable, county of registration and number:

I declare under penalty of
perjury under the laws of
the State of California
that the foregoing is true
and correct.

(For California sheriff or
marshal use only)
I certify that the foregoing
is true and correct.

Date:

Date:

___________ (signature)

___________ (signature)

————
ATTACHMENT (Number): 3
(This Attachment may be used with any
Judicial Council form.)
See attachment Order from Texas.

10a
DECLARATION OF MARO ROBBINS
I, Maro Robbins, am over the age of twenty-one and
am competent to make this declaration. I declare as
follows:
1. I am a supervising attorney at the Texas
Office of Capital & Forensic Writs (OCFW)
and lead counsel representing Joseph
Kennedy Colone in Ex parte Joseph Colone,
10-10213-A (WR-89,538-01), a post-conviction
application for writ of habeas corpus currently before the 252nd District Court in
Jefferson County, Texas.
2. The attached Exhibit A is a true and
accurate copy of an email dated April 8, 2020
from counsel for ESR (the Institute of Environmental Science and Research), containing ESR’s objection to OCFW’s request to
have an expert acting on Mr. Colone’s behalf
access and review the STRmixTM source code
hosted by GitHub, Inc.
3. The attached Exhibit B is a true and
accurate copy of an email dated April 21,
2020 from staff at GitHub, Inc., declining
OCFW’s request that they comply with the
subpoena issued on Mr. Colone’s behalf
requesting access to the source code in ESR’s
GitHub account and/or platforms.
I declare under penalty of perjury that the foregoing is
true and correct. Executed at 7710 Lazy Lane, Austin,
in Travis County, State of Texas on April 27, 2020.
/s/ Maro Robbins
Maro Robbins

11a
Exhibit A
Maro Robbins
From:
Hamilton DeSaussure
<hdesaussure@bmdllc.com>
Sent:
Wednesday, April 8, 2020 12:55 PM
To:
Maro Robbins; Blake R. Gerney
Cc:
Mark Fuller
Subject:
RE: Ex Parte Colone subpoena
Attachments: RE: Ex Parte Colone Sumpoena
Hello Maro: Things are a bit in turmoil but all is well
on our end. I hope the same for you.
I understand that the Texas court issued a certificate
for a subpoena. I have not seen the subpoena to
GitHub. I would appreciate it if you would send me
the subpoena sent to GitHub. Please advise if it has
been served.
The position of ESR has not changed. Given the proprietary nature of the source code, as we have discussed in the past, ESR does object to any review of
the source code without a signed NDA. On that point,
I believe Blake Gerney sent you a revised NDA earlier
this year. We provided it as well to your local counsel
in early March (see attached). We have not heard
back from you on that. Coming to agreement on the
language of the NDA would be the most efficient way
of getting the source code review conducted.
ESR certainly objects to any review conducted of any
STRmixTM source code which may be hosted on the
GitHub site.
I am happy to discuss this further with you.
Regards,
Hal

12a
HAMILTON DeSAUSSURE, JR.
Partner
P: 330.436.8914
C: 330.697.5190
F: 330.436.8911
E: hdesaussure@bmdllc.com
Website | Map
BRENNAN MANNA DIAMOND
75 E. Market Street Akron, OH 44308
Notice: The information contained in this electronic
mail transmission is intended by Brennan, Manna &
Diamond, LLC for the use of the named individual or
entity to which it is directed and may contain
information that is privileged or otherwise confidential. It is not intended for transmission to, or receipt
by, anyone other than the named addressee (or a person authorized to deliver it to the named addressee).
It should not be copied or forwarded to any unauthorized persons. If you have received this electronic mail
transmission in error, please delete it from your
system without copying or forwarding it, and notify
the sender of the error by reply email or by calling
Brennan, Manna & Diamond, LLC at 1-330-253-5060,
so that our address record can be corrected. If this
message pertains to any offer of compromise then it is
not admissible in any legal proceeding for any purpose.

From:
Sent:
To:

Cc:
Subject:

13a
Maro Robbins
<Maro.Robbins@ocfw.texas.gov>
Tuesday, April 7, 2020 1:54 PM
Blake R. Gerney
<brgerney@bmdllc.com>;
Hamilton DeSaussure
<hdesaussure@bmdllc.com>
Mark Fuller
Ex Parte Colone subpoena

**External User**
Hi Hal, Blake,
I hope you and yours are all safe and well despite all
the recent turmoil.
As I believe you are aware, in addition to the subpoenas in Akron, our request for a subpoena seeking
access to the STRmix source code from GitHub in
California also was approved. In light of that approval,
does ESR object to our expert reviewing the source
code hosted by GitHub?
Thank you,
Maro
Maro Robbins
Staff attorney
Texas Office of Capital and Forensic Writs
maro.robbins@ocfw.texas.gov
Ph: (512) 463-7034
CONFIDENTIALITY NOTICE: This e-mail message,
and any attachments thereto, contains legally privileged and/or confidential attorney-client and work
product information. Unless you are the addressee (or
authorized to receive messages for the addressee), you
may not use, copy, or disclose this message (or any
information contained in it) to anyone. If you have

14a
received this message in error, please advise the
sender by reply e-mail and delete this message.
Nothing in this message should be interpreted as a
digital or electronic signature that can be used to
authenticate a contract or other legal document.
Notice: The information contained in this electronic
mail transmission is intended by Brennan, Manna &
Diamond, LLC for the use of the named individual or
entity to which it is directed and may contain information that is privileged or otherwise confidential. It
is not intended for transmission to, or receipt by,
anyone other than the named addressee (or a person
authorized to deliver it to the named addressee). It
should not be copied or forwarded to any unauthorized
persons. If you have received this electronic mail
transmission in error, please delete it from your
system without copying or forwarding it, and notify
the sender of the error by reply email or by calling
Brennan, Manna & Diamond, LLC at 1-330-253-5060,
so that our address record can be corrected.

15a
Exhibit B
Maro Robbins
From:
Sieger Cejas (GitHub Staff)
<help@github.com>
Sent:
Tuesday, April 21, 2020 7:01 PM
To:
Maro Robbins; Marshall Searcy
Cc:
Mark Fuller
Subject:
RE: Ex Parte Colone subpoena
Attachments: Re: RE: Subpoena to GitHub –
Ex Parte Colone
Hi Mr. Robbins —
Thanks for your follow-up message below regarding
your subpoena for the “STRmix” source code. Please
note that you can review and download all of the
the publicly available source code published by the
“ESR-NZ” account on their profile page: <https://
github.com/ESR-NZ>
If you believe that the “STRmix” source code may be
in a private repository, GitHub cannot inspect a user’s
private stored communications (or permit anyone else
to do so) without the user’s consent. Moreover, as
mentioned previously, even if GitHub could inspect
the account’s private contents, we do not have any
knowledge about the contents of that account or the
“STRmix” source code. The account owners would be
the ones best positioned to identify and produce the
relevant source code from their private repositories. If
you believe that the “STRmix” source code is located in
their private storage, your subpoena should be
directed to them, not GitHub.
It sounds as though you already know how to get in
touch with the presumptive account holder; however,
if you need to obtain their contact information, as
mentioned previously GitHub could produce the

16a
subscriber information we have for the “ESR-NZ”
account upon receipt of a revised subpoena asking for
identifying information about the account holder.
Best regards,
Jesse
—— Original Message ——
Hi Mr. Geraci,
I am following up on the subpoena seeking the
STRmix source code on GitHub’s platforms. We do
believe that the ESR-NZ account is the relevant one,
but ESR (the Institute for Environmental Science and
Research) has indicated that it opposes our subpoena
for the source code. As a result, there is no reason to
believe ESR would help us obtain access to materials
in their GitHub account. Given the concern that you
have raised about identifying the source code, our
request is that GitHub comply with the subpoena
either (1) by permitting our expert to access all of the
materials in ESR’s account/storage space and identify
the source code or (2) by asking ESR to identify the
source code to GitHub so that GitHub can make only
the code available for review by our expert. Please let
us know whether you are willing to proceed with either
of these options.
Thank you,
Maro Robbins
Staff attorney
Texas Office of Capital and Forensic Writs
maro.robbins@ocfw.texas.gov
Ph: (512) 463-7034

17a
CONFIDENTIALITY NOTICE: This e-mail message,
and any attachments thereto, contains legally
privileged and/or confidential attorney-client and
work product information. Unless you are the
addressee (or authorized to receive messages for the
addressee), you may not use, copy, or disclose this
message (or any information contained in it) to
anyone. If you have received this message in error,
please advise the sender by reply e-mail and delete
this message. Nothing in this message should be
interpreted as a digital or electronic signature that can
be used to authenticate a contract or other legal
document.
——Original Message——
From:
Sent:
To:
Cc:
Subject:

Jesse Geraci (GitHub Staff)
<help@github.com>
Tuesday, March 3, 2020 10:01 AM
Marshall Searcy
<marshallsearcy@quinnemanuel.com>
Maro Robbins
<Maro.Robbins@ocfw.texas.gov>
Re: Subpoena to GitHub –
Ex Parte Colone

Hi Marshall —
Unfortunately, we are still unable to locate the
source code and supporting documents requested in
your subpoena based on the information you have
provided. As I mentioned previously, GitHub does not
have any knowledge about the “STRmix” software or
source code. Based on the additional information you
provided, we were able to locate an account that
appears to be associated with the Institute for
Environmental Science and Research — see
<https://github.com/ESR-NZ>. But GitHub does not

18a
have any knowledge about the contents of that account
and cannot say whether it contains the “STRmix”
source code or supporting documents requested in the
subpoena. The account owners would be the ones who
might be able to answer those questions for you.
Furthermore, if the account has responsive code
located in their private storage space, the account
owner could and should be able to produce that
information to you, and GitHub would not be able to
produce that content without the account owner’s
consent.
If you believe that the “ESR-NZ” account is relevant
to your case, you could send GitHub a revised
subpoena asking for identifying information about the
account holders so that you could then contact them to
inquire whether they have the “STRMix” code.
Let me know if you have any further questions.
- Jesse

19a
QUINN EMANUEL URQUHART & SULLIVAN, LLP
Marshall M. Searcy (Cal. Bar. No. 169269)
865 South Figueroa Street, 10th Floor
Los Angeles, California 90017-2543
Telephone:
(213) 443-3000
Facsimile:
(213) 443-3100
TEXAS OFFICE OF CAPITAL AND
FORENSIC WRITS
Maro Robbins (Pro Hac Vice Pending)
Stephen F. Austin Building
1700 N. Congress Avenue, Suite 460
Austin, Texas 78701
Telephone:
(512) 463-8600
Facsimile:
(512) 463-8590
Attorneys for Joseph Colone
————
ELECTRONICALLY FILED
Superior Court of California,
County of San Francisco
06/18/2020
Clerk of the Court
BY: EDNALEEN ALEGRE
Deputy Clerk
————
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF SAN FRANCISCO
————

20a
Case No. CPF-20-517083
(Texas Writ Cause No. 10-10213-A)
————
EX PARTE. Joseph Colone
Applicant
————
AMENDED NOTICE OF MOTION AND MOTION
TO COMPEL PRODUCTION OF RECORDS
PURSUANT TO CAL. PENAL CODE § 1334.2;
————
DECLARATION OF MARSHALL SEARCY;
DECLARATION OF MARO ROBBINS;
PROPOSED ORDER
————
Date: July 23, 2020
Time: 9:00 a.m.
Dept.: 302
————
TO ALL PARTIES AND THEIR ATTORNEYS OF
RECORD:
PLEASE TAKE NOTICE THAT, on July 23, at
9:00 a.m. or as soon thereafter as may be heard, in
Department 302 of the above-entitled Court, Joseph
Colone, through Mr. Colone’s Texas counsel, the Office
of Capital and Forensic Writs (OCFW), will move and
hereby moves the Court, pursuant to California Penal
Code Section 1334.2, for an order compelling production of the source code listed in the subpoena issued
by the Court on January 31, 2020, consistent with the
Order and Certificate from the 252nd District Court

21a
in Texas, certifying that the requested materials are
material and necessary to ongoing post-conviction
proceedings in a death penalty case.
With this Motion, Mr. Colone seeks production of
materials created by an agency that sold its software
for use in Texas courts and now seeks to avoid the
jurisdiction of Texas courts. The creator of the
STRmixTM software is the Institute of Environmental
Science and Research (ESR), which is based in New
Zealand. Because the conviction of Mr. Colone was
based upon use of STRmixTM software, Mr. Colone
seeks to have an expert review the source code for
the STRmixTM software that was used to analyze DNA
evidence in his death penalty trial. As stated in the
Order and Certificate issued by the 252nd District
Court in Texas, the STRmixTM source code is material
and necessary to the litigation in Mr. Colone’s case.
GitHub is a California firm that, upon information
and belief, hosts the STRmixTM source code for ESR
on an online or cloud-based platform. At the request
of the 252nd District Court in Texas, this Court previously issued a subpoena duces tecum calling on
GitHub to provide Mr. Colone’s expert online access
to the source code. GitHub, whose services include
securely hosting source code for various businesses on
online or cloud-based platforms, acknowledges that
ESR has a GitHub account, yet, to date, GitHub has
declined to comply with the subpoena. GitHub
contends that it has no knowledge of the materials in
ESR’s GitHub account and that it cannot produce
those materials without ESR’s consent.
However, ESR refuses to permit Mr. Colone’s expert
access to the source code because ESR it says that it
is dissatisfied with the protective order that the Texas
court issued to govern review of the source code. By

22a
refusing to cooperate with the end result being that
GitHub has not complied with the subpoena—ESR
appears to be counting on the fact that it is a New
Zealand entity with no registered agents in the United
States and is therefore beyond the reach of a subpoena
or other Texas court order despite the fact that ESR
markets its software in multiple U.S jurisdictions.
Accordingly, Mr. Colone moves this Court to compel GitHub to comply with the subpoena. Mr. Colone’s
motion is based on the attached memorandum of
points and authorities, and the declarations of
Marshall Searcy and Maro Robbins.
Dated: June 18, 2020
QUINN EMANUEL URQUHART &
SULLIVAN, LLP
By /s/ Marshall Searcy
Marshall Searcy
Attorneys for Joseph Colone
MEMORANDUM OF POINTS
AND AUTHORITIES
I. STATEMENT OF FACTS AND PROCEDURAL
HISTORY
This motion arises from a case in Texas where
Petitioner has been sentenced to the death penalty.
DNA evidence was central to the prosecutors’ case
in Mr. Colone’s trial in Texas. However, while the case
was awaiting trial, forensic laboratories in Texas
and around the country became aware of flaws in
their methods for interpreting mixtures of DNA. As a
result, prosecutors in Mr. Colone’s case received
nearly a year of additional time to resolve those issues.
Ultimately, to sidestep the problems that analysts
were having interpreting DNA mixtures, the state-

23a
funded crime laboratory turned to the probabilistic
genotyping software STRmixTM to analyze mixtures of
DNA evidence in Mr. Colone’s trial. As a result, the
prosecution’s experts testified—for the first time in a
Texas death penalty trial—to the results of analysis
conducted by software. Yet Mr. Colone’s trial counsel
took no steps to independently assess the accuracy
or reliability of this evidence. No hearing was held out
of the presence of the jury to examine the bases for
the conclusions drawn by the State’s DNA experts
despite the fact that, under the Texas Rules of
Evidence, defendants in criminal cases are entitled
to learn the facts and data underlying expert testimony. See TEX. R. EVID. 705(b) (“an adverse party . . .
in a criminal case must . . . be permitted to examine
the expert about the[ir] underlying facts or data”).
Neither was a hearing conducted to determine whether
STRmix’s computer-created evidence was sufficiently
reliable to be admitted pursuant to Daubert v. Merrell
Dow Pharmaceuticals, Inc., 509 U.S. 579, 595 (1993)
and Kelly v. State, 824 S.W.2d 568 (Tex. Crim. App.
1992).
Mr. Colone was ultimately convicted and sentenced
to death. The Office of Capital and Forensic Writs
(OCFW) was then appointed to investigate potential
post-conviction claims on Mr. Colone’s behalf. As part
of its statutorily mandated investigation,1 the OCFW
sought the data and records needed to understand
and assess the State’s DNA evidence. To this end, the
OCFW sought production of various records addressing the DNA evidence, including access to STRmixTM’s
source code. When the OCFW subpoenaed the source
1

See, e.g., TEX. CODE CRIM. PROC. art. 11.071 sec. 3(a); State
Bar of Texas, Guidelines and Standards for Texas Capital Cases,
Guideline 12.2(B).

24a
code from the Texas Department of Public Safety
(DPS) Crime Laboratory, which had conducted the
DNA analysis with STRmixTM on the prosecution’s
behalf. In response, DPS indicated that it did not possess the source code and that the OCFW would have
to obtain them from STRmixTM’s vendor.
The OCFW then asked the Texas court to issue an
order requiring STRmixTM’s creator, the Institute of
Environmental Science and Research Limited (ESR),
to make available certain materials relating to the
operation of the software, including the source code.
The Texas court did so on May 5, 2019, however, in
addition, the court sua sponte modified the terms of
the order so that it required the OCFW to sign a
non-disclosure agreement (NDA) drafted by ESR
before reviewing the source code. Because some terms
of ESR’s NDA were onerous and unnecessary, the
OCFW asked the court to modify its order and, instead
of requiring the OCFW to sign ESR’s NDA, to issue a
protective order that would address the OCFW’s
concerns while protecting ESR’s proprietary interests
in the STRmixTM source code.
After listening to and considering ESR’s objections,
the Texas court on November 21, 2019 issued a
Protective Order that would safeguard the confidentiality of ESR’s proprietary information while permitting Mr. Colone’s expert to conduct the necessary
review of the source code. However, on December 4,
2019, counsel for ESR advised the OCFW that ESR
was refusing to provide access to the STRmixTM source
code under the terms of the court’s Protective Order
because ESR was dissatisfied with the protective
order. At that time, ESR’s counsel advised that, to
proceed, the OCFW would need to subpoena the source

25a
code but that ESR’s counsel would not accept service
of a subpoena.
As a result, Mr. Colone sought to subpoena the
STRmixTM source code from GitHub, which, upon
information and belief, hosts the source code on an
online platform. To that end, the Texas court issued
an Order and Certification stating that the source code
and other related items sought by Mr. Colone were
material and necessary to the review of Mr. Colone’s
post-conviction proceedings in Texas. In turn, this
Court issued on January 31, 2020 a subpoena to
GitHub for the source code, consistent with the
Uniform Act to Secure Attendance of Witness From
Without State, codified at Section 1334.2 of the
California Penal Code. Instead of requiring witnesses
to appear and/or bring the documents to Texas, the
subpoena called on GitHub to permit Mr. Colone’s
experts to review the source code online, or in GitHub
offices, or in the Ohio office of ESR’s counsel, pursuant
to the terms of the Protective Order attached to
the Order and Certificate from the 252nd District
Court of Texas. (See Jan 3, 2020 Order and Certificate,
Attachment 3 to Subpoena to GitHub. The January 31,
2020 subpoena to GitHub is attached as Exhibit A to
the declaration of Marshall Searcy).
After receiving the subpoena, GitHub acknowledged
that ESR maintains a GitHub account. GitHub staff
stated that the firm will not produce content from
one of its accounts without the account holder’s consent. Additionally, GitHub staff indicated that they
have no knowledge of the materials in ESR’s account
and no way of knowing whether those materials
include the STRmixTM source code.
The OCFW asked ESR’s counsel whether ESR
would consent to Mr. Colone’s expert reviewing the

26a
source code materials on GitHub. On April 8, 2020,
ESR’s counsel responded that ESR objects to any
review of any STRmixTM source code hosted on any
GitHub site. (Robbins Declaration, Exhibit A).
Having received ESR’s objection, OCFW asked
GitHub to comply with the subpoena in one of two
ways: (1) by providing access to the materials in the
ESR account and permitting Mr. Colone’s expert to
identify the source code, or (2) by asking its client
ESR to identify the source code so that GitHub could
provide access to only that material. GitHub’s representatives declined to do so. (Robbins Declaration,
Exhibit B).
Mr. Colone now asks this Court to enforce the
subpoena by compelling GitHub to produce the
materials in its possession. To comply with the
subpoena, GitHub can either (1) provide access to the
materials in ESR’s GitHub account and permit Mr.
Colone’s expert to identify the source code, or (2)
GitHub can ask its client ESR to identify the source
code so that GitHub provides access to only that
material.
II. ARGUMENT AND AUTHORITIES
A. The Authority of the Court Under the
California Penal Code
In codifying the Uniform Act to Secure Attendance
of Witnesses from Without State, Section 1334.2 of
the California Penal Code states that, if a witness
fails without good cause to comply with a subpoena,
the witness “shall be punished in the manner provided
for the punishment of any witness who disobeys a
subpoena issued from a court of record in this state.”

27a
Section 1331 of the California Penal Code states
that disobedience to a subpoena may be punished by
the Court as contempt. Section 166(a)(4) of the Penal
Code defines contempt as encompassing willful disobedience of a lawfully issued court order or out-of-state
court order.
In this matter, GitHub has declined to either provide the subpoenaed materials in its possession or
take even reasonable steps to ascertain whether it
has the relevant materials in its possession.
The Court therefore may take action to enforce its
lawfully issued subpoena requiring GitHub to produce
the STRmixTM source code for review by Mr. Colone’s
expert, pursuant to the terms of the Protective Order
issued by the 252nd District Court of Texas. At this
time, rather than ask this Court to hold GitHub in
contempt, Mr. Colone simply asks the Court to enforce
its subpoena by ordering GitHub to provide access to
the materials in its possession.
B. The Subpoena is Valid
The subpoena was valid when issued by the Court,
and it remains enforceable. A true and correct copy
is attached, along with proof of service. Additionally,
GitHub had actual knowledge of the subpoena. GitHub
was served with the subpoena on February 4, 2020 and
has since acknowledged receipt. Therefore, GitHub
cannot challenge the subpoena’s validity.
C. Enforcement of the Subpoena Would Not Be
Unduly Burdensome
GitHub acknowledges that ESR is a client that uses
GitHub’s services to maintain materials on GitHub’s
online platform. GitHub therefore has access to
the materials on its own platforms, and GitHub can

28a
permit Mr. Colone’s expert to identify the source code
among the materials in ESR’s account, or GitHub can
ask its client ESR to identify the STRmixTM source
code and provide only that code for Mr. Colone’s expert
to review.
No one would need to travel to Texas and appear
in court to comply with the subpoena. GitHub could
make the materials available to Mr. Colone’s expert
online, in GitHub’s offices, or, if ESR so desires, in the
Ohio office of ESR’s counsel. Finally, review of the
source code would be governed by the Protective
Order issued by the Texas court to protect the confidentiality of any proprietary information. Therefore,
enforcement of the subpoena is both reasonable and
warranted.
III. PRAYER FOR RELIEF
The subpoena at issue seeks documents that have
been deemed necessary and material by a Texas court
overseeing post-conviction review of a death sentence.
The creator of those documents, ESR, is a foreign
organization that sold its software for use in Texas
criminal cases but now refuses to submit itself to the
jurisdiction of a Texas court or to subject its software
to the adversarial scrutiny that is necessary to reliable
due process. Because ESR operates in New Zealand,
out of reach of a subpoena, Mr. Colone is forced to seek
the necessary and material records from the California
firm that hosts those records for ESR on its online or
cloud-based platforms. Recognizing that these items
are material and necessary to ongoing death penalty
litigation in Texas, this Court issued the subpoena in
question, which was then served upon GitHub. For the
foregoing reasons, Mr. Colone respectfully requests
that this Court enforce its valid subpoena by issuing
an order requiring GitHub to comply with the sub-

29a
poena by (1) providing access to the materials in ESR’s
GitHub account so that Mr. Colone’s expert can
identify the source code, or (2) asking its client ESR to
identify the source code and providing Mr. Colone’s
expert with access to only that material.
Respectfully submitted,
QUINN EMANUEL URQUHART &
SULLIVAN, LLP
By /s/ Marshall Searcy
Marshall Searcy
Attorneys for Joseph Colone
DATED: June 18, 2020

30a
W. DOUGLAS SPRAGUE (202121)
COVINGTON & BURLING LLP
Salesforce Tower
15 Mission Street, Suite 5400
San Francisco, California 94105-2533
Telephone: (415) 591-6000
Facsimile: (415) 591-6091
Email: dsprague@cov.com
ALEXANDER A. BERENGAUT
(pro hac vice pending)
MEGAN A. CROWLEY
(pro hac vice pending)
COVINGTON & BURLING, LLP
One City Center
850 Tenth Street, NW
Washington, DC 20001-4956
Telephone: (202) 662-5367
Facsimile: (202) 662-6291
Email: aberengaut@cov.com
mcrowley@cov.com
Attorneys for GitHub, Inc.
————
SUPERIOR COURT FOR THE
STATE OF CALIFORNIA FOR THE
COUNTY OF SAN FRANCISCO
————
Case No. CPF-20-517083
————
EX PARTE. Joseph Colone
APPLICANT

31a
————
DECLARATION OF
W. DOUGLAS SPRAGUE
————
Honorable Judge Ethan P. Schulman
Department: 302
Hearing Date: July 28, 2020
Hearing Time: 9:00 a.m.
————
I, W. Douglas Sprague, declare as follows:
1. I am a member of the bar of the State of
California. I am a partner at the law firm Covington &
Burling, LLP and am counsel to GitHub in this matter.
2. I make this declaration based on personal,
firsthand knowledge, and if called and sworn as a
witness, I could and would testify competently thereto.
3. Attached hereto as Exhibit 1 is a true and
correct copy of a letter from Hamilton DeSaussure, Jr.,
which I received by e-mail on July 14, 2020.
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true
and correct.
Executed on this 15th day of July, 2020, at
Piedmont, California.
By /s/ W. Douglas Sprague
W. DOUGLAS SPRAGUE

32a
Exhibit 1
Hamilton DeSaussure, Jr.
Partner
P: 330.436.8914
F: 330.436.8911
E: hdesaussure@bmdllc.com
July 14, 2020
Marshall M. Searcy
Quinn Emanuel Urquhart
& Sullivan, LLP
865 South Figueroa Street
10th Floor
Los Angeles, CA
90017-2543
marshallsearcy@
quinnemanuel.com

Maro Robbins
Stephen F. Austin Building
1700 N. Congress Avenue
Suite 460
Austin, TX 78701
Maro.robbins@
ocfw.texas.gov

W. Douglas Sprague
Covington & Burling, LLP
Alexander A. Berengaut
Salesforce Tower
Covington & Burling, LLP 415 Mission Street,
One CityCenter
Suite 5400
850 Tenth Avenue, NW
San Francisco, CA
Washington, DC.
94105-2533
20001-4956
dsprague@cov.com
aberengaut@cov.com
Re: Subpoena to GitHub, Inc./Motion to Compel
Production Case No. CPF-20-517083, Superior
Court of the State of California, County of San
Francisco

33a
Dear Counsel:
I am writing on behalf of the Institute of Environmental Science and Research, and its subsidiary,
STRmix, Ltd. (referred to herein as “ESR”). ESR has
been advised by counsel for GitHub that GitHub has
received a subpoena seeking information concerning
software developed by ESR which is now the subject
of a Motion to Compel Production. ESR understands
that this matter is scheduled for a hearing later
this month in the Superior Court of California, County
of San Francisco. This letter will outline ESR’s efforts
to provide information to the Texas Office of Capital
and Forensic Writs (“OCFW”) in connection with the
proceedings in the matter of Ex Parte Joseph Kenney
Colone.
I have corresponded with Atty. Maro Robbins to
discuss providing material as requested by the
OCFW. To my knowledge and belief, all the material
being sought by the OCFW from ESR has been
produced subject to a Protective Order in the Texas
proceeding, with the sole exception being the review
of the source code for version 2.3.07 of the forensic
DNA analysis software known as STRmixTM. In connection with the requested source code review, I have
corresponded with Atty. Robbins to negotiate suitable
terms for a non-disclosure agreement to be signed by
the expert witnesses utilized by OCFW in this matter.
Exhibit A attached hereto comprises various email
correspondence between my office and Atty. Maro
Robbins dating back to November, 2019. This email
correspondence is not exhaustive but does contain
communication relating to the negotiations over the
terms of a non-disclosure and confidentiality agreement required by ESR before it can produce the
STRmix source code for inspection.

34a
In connection with the proceedings in Ex Parte
Colone, Atty. Robbins has requested that Nathan
Adams review the STRmixTM source code for Version
2.3.07. I understand that Nathan Adams works for
the Forensic Bioinformation Services Company in
Fairborn, Ohio. Nathan Adams has previously
reviewed the source code for STRmixTM in connection
with other criminal proceedings.
Nathan Adams has executed a “Non-Disclosure and
Confidentiality Agreement” on prior occasions to gain
access the STRmixTM source code in connection
with providing expert testimony in criminal proceedings. Exhibit B attached hereto is the Non-Disclosure
and Confidentiality Agreement executed by Nathan
Adams on May 8, 2018. After executing this agreement, Nathan Adams reviewed the STRmixTM source
code for Version 2.3.07 in my office in Canton, Ohio.
ESR stands ready to allow an examination of the
STRmixTM source code for Version 2.3.07 provided that
any reviewing expert executes an acceptable nondisclosure agreement containing terms establishing
the manner of inspection. ESR is willing to allow
Nathan Adams to review the source code for Version
2.3.07 again if he agrees in writing that the terms of
the May 8, 2018 Non-Disclosure and Confidentiality
Agreement will apply to his review. ESR has no
objection to Adams providing testimony in Ex Parte
Colone based on his May, 2018 examination of the
source code.
Finally, ESR is willing to continue negotiations on
the terms of the Non-Disclosure and Confidentiality
Agreement in an attempt to develop an agreement
satisfactory to ESR, OCFW and its expert witness.

35a
Please contact me if you would like to discuss this
matter further.
Very truly yours,
/s/ Hamilton DeSaussure, Jr.
Hamilton DeSaussure, Jr.
HD:blh
Encl.

36a
DECLARATION OF MARO ROBBINS
I, Maro Robbins, am over the age of twenty-one and
am competent to make this declaration. I declare as
follows:
1. I am a supervising attorney at the Texas Office
of Capital & Forensic Writs (OCFW) and lead counsel
representing Joseph Kenneth Colone in Ex parte
Joseph Colone, 10-10213-A (WR-89,538-01), a postconviction application for writ of habeas corpus currently before the 252nd District Court in Jefferson
County, Texas.
2. In that proceeding, Mr. Colone is challenging
the constitutionality of the proceedings in the 252nd
District Court that resulted in his being convicted and
sentenced to death in 2017.
3. Mr. Colone was convicted at a trial in which
DNA evidence played a central role in the prosecution.
However, while the case was pending trial, forensic
laboratories in Texas and around the country became
aware of flaws in their methods for interpreting
mixtures of DNA. Ultimately, the prosecution’s laboratory turned to the probabilistic genotyping software
STRmixTM to analyze mixtures of DNA evidence in
Mr. Colone’s case. As a result, the prosecution’s
experts in Mr. Colone’s case testified—for the first
time in a Texas death penalty trial—to the results
generated by the software.
4. At the time of trial, the Texas Rules of Evidence
entitled defendants to learn the facts and data underlying an expert’s conclusions. TEX. R. EVID. 705(b).
Additionally, approximately eight months before
trial, a prominent group of scientists warned that

37a
probabilistic genotyping programs, such as STRmixTM,
“require careful scrutiny.” See President’s Council of
Advisors on Science and Technology, Forensic Science
in Criminal Courts: Ensuring Scientific Validity of
Feature-Comparison Methods, § 5.2 (Sept. 2016) at 79.
5. Yet, the OCFW’s post-conviction investigation
indicates that Mr. Colone’s trial lawyers did not
obtain the prosecution experts’ DNA data or laboratory records; nor did the trial attorneys seek to
examine or challenge the reliability or admissibility
of the STRmixTM’s results under Daubert v. Merrell
Dow Pharmaceuticals, Inc., 509 U.S. 579, 595 (1993).
After the trial, the OCFW was appointed to investigate and prepare on Mr. Colone’s behalf an Application for a Writ of Habeas Corpus. Like trial counsel,
post-conviction counsel such as the OCFW have a
duty to conduct an independent examination of the
prosecution’s evidence. See State Bar of Texas,
Guidelines and Standards for Texas Capital Cases,
Guideline 11.1(A) (“Counsel at every stage have an
obligation to conduct thorough and independent investigations”); Guideline 12.2(B) (post-conviction counsel
have a “duty to conduct a searching inquiry into claims
involving . . . flawed forensic methods”); American Bar
Association, Guidelines for the Appointment and
Performance of Defense Counsel in Death Penalty
Cases, 31 HOFSTRA L. REV. 913 (rev. ed. 2003),
Guideline 1.1 cmt. Mr. Colone’s Application for a
Writ of Habeas Corpus contends that his lawyers’
neglect of the DNA evidence, including the STRmixTM
results, rendered their representation ineffective.
6. Judge K. Michael Mayes, presiding by assignment in the 252nd District Court of Texas, has issued
an Order designating certain issues raised by Mr.
Colone’s Application as needing resolution. Among

38a
those issues were the questions of whether Mr.
Colone’s lawyers were ineffective in failing to investigate the reliability or validity of the prosecution’s
STRmixTM evidence, and whether this failure prejudiced Mr. Colone’s defense. See Designation of Controverted, Previously Unresolved Factual Issues Material
to the Legality of Applicant’s Confinement, Ex parte
Joseph Kenneth Colone, 10-10213-A (Dec. 26, 2019).
7. The OCFW first sought to subpoena the
STRmixTM source code from the state-owned crime
laboratory that used STRmixTM to examine the evidence in Mr. Colone’s case, but the lab’s staff indicated that they did not have the code in their possession. The OCFW then asked the Texas court to issue
an order requiring STRmixTM’s creator, the Institute of
Environmental Science and Research Limited (ESR),
to make available certain materials relating to the
operation of the software, including the source code.
8. The Texas court issued the order on May 5,
2019, however, in addition, the court sua sponte modified the terms of the order so that it required the
OCFW to sign a non-disclosure agreement (NDA)
drafted by ESR before reviewing the source code.
Because some of ESR’s NDA terms appeared onerous
and unnecessary, the OCFW asked the Texas court
to modify the order and, instead of requiring the
OCFW to sign ESR’s NDA, to issue a protective order
that would address the OCFW’s concerns while protecting ESR’s proprietary interests in the STRmixTM
source code.
9. In regard to the request for a protective order,
the Texas court sought and received ESR’s position
orally and in writing. Appendices 1 (ESR’s letter
to the Texas court), 2 (email scheduling telephone
conference). During that process, ESR’s counsel

39a
advised the Texas court that they were willing to
provide access to the source code if Mr. Colone’s expert
signed an NDA similar to one the expert had previously signed in an unrelated case. ESR also asked the
Texas court to incorporate the terms of its NDA in a
protective order. Appendix 1. After listening to ESR’s
arguments, the Texas court on November 21, 2019
issued a Protective Order that did not include all of
ESR’s requested provisions but would safeguard the
confidentiality of ESR’s proprietary information
while permitting Mr. Colone’s expert to conduct the
necessary review of the source code. See Ex. A (Protective Order attached to the Texas court’s Certificate).
However, on December 4, 2019, counsel for ESR
advised the OCFW that ESR was refusing to provide
access to the STRmixTM source code under the terms
of the court’s Protective Order because ESR was dissatisfied with the order. At that time, ESR’s counsel
advised that, to review the source code, the OCFW
would need to subpoena the source code but that
ESR’s counsel would not accept service of a subpoena.
10. On January 1, 2020, the OCFW filed in the
Texas court an application for out-of-state subpoenas
seeking production of the STRmixTM source code
from, among others, GitHub. The application referenced, among other things, an expert’s declaration
that had been previously submitted to the court when
the OCFW asked the Court to order production of the
source code from the prosecution. In that declaration,
Mr. Colone’s DNA expert stated, “It is not possible
to assess or confront STRmixTM’s conclusions without
a particularized understanding of the analysis it performs, and that understanding cannot be obtained
without a review of the software’s source code.” At the
time of filing, a copy of Mr. Colone’s application for an
out-of-state subpoena seeking the source code from

40a
GitHub was emailed to ESR’s counsel. Appendix 3
(email from ESR’s counsel confirming receipt of the
application for an out-of-state subpoena). I have no
information or reason to believe that ESR submitted
any opposition to this request to the Texas court.
11. On January 3, 2020, the Court granted Mr.
Colone’s Application for an Out-of-State Subpoena
Seeking Production of the STRmix Source Code from
GitHub. In so doing, the Court issued an Order and
Certificate in which the Judge certified that production of the STRmixTM source code, among other items,
was “material and necessary for the administration
of justice in” Texas. Ex. A.
12. So that the record can be developed in regard
to STRmixTM and other issues, the Texas court has
ordered the parties in Mr. Colone’s case to conduct
depositions. Following the onset of the COVID-19
pandemic, the Court issued an Order calling for the
depositions to occur remotely using Zoom videoconferencing so that none of the parties or witnesses
would need to travel to the Jefferson County Courthouse in Beaumont, Texas. The Order also permitted
the OCFW to issue subpoenas to secure the necessary
testimony and permitted the parties to reach an
agreed upon schedule for that testimony. Appendix 4
(Order on Applicant’s Motion for Court Reporting
Services, Ex parte Joseph Kenneth Colone, 10-10213A, April 17, 2020.).
I declare under penalty of perjury that the foregoing
is true and correct. Executed at 7710 Lazy Lane,
Austin, in Travis County, State of Texas on July 21,
2020.
/s/ Maro Robbins
Maro Robbins

41a
[1] IN THE SUPERIOR COURT OF THE
STATE OF CALIFORNIA IN AND FOR THE
CITY AND COUNTY OF SAN FRANCISCO
BEFORE THE HONORABLE
ETHAN P. SCHULMAN,
JUDGE PRESIDING
DEPARTMENT NO. 302
————
CERTIFIED TRANSCRIPT
No. CPF-20-517083
————
IN RE APPLICATION OF: JOSEPH COLONE
————
REPORTER’S TRANSCRIPT OF PROCEEDINGS
TUESDAY, JULY 28, 2020
————
APPEARANCES
(via Zoom)
For Joseph Colone:
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
BY: Marshall M. Searcy
865 South Figueroa Street, 10th Floor
Los Angeles, California 90017-2543
TEXAS OFFICE OF CAPITAL AND
FORENSIC WRITS
STEPHEN F. AUSTIN BUILDING
BY: Maro S. Robbins
1700 N. Congress Ave., Suite 460
Austin, Texas 78701

42a
For Github:
COVINGTON & BURLING LLP
BY: W. Douglas Sprague
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, California 94105-2533
COVINGTON & BURLING, LLP
BY: Alexander A. Berengaut,
Megan A. Crowley
One City Center
850 Tenth Street, NW
Washington, DC 20001-4956
————
[2] July 28, 2020

9:36 a.m.
PROCEEDINGS

THE COURT: The only other matter I have on
calendar that I’m aware of, that is contested is line 6,
In re Application of Joseph Colone, C-o-l-o-n-e.
May I have appearances on that matter?
MR. SEARCY: Good morning, Your Honor,
Marshall Searcy, S-e-a-r-c-y, of Quinn Emanuel;
And with me today to argue the motion is Maro
Robbins.
MR. ROBBINS: Good morning, Your Honor. Maro
Robbins. That’s spelled R-o-b-b-i-n-s. I’m with the
Texas Office of Capital and Forensic Writs;
I also have a motion pro hac vice admission pending.
THE COURT: Um . . . All right. And is counsel
present for GitHub?

43a
MR. SPRAGUE: Yes, Your Honor. Good morning.
Douglas Sprague, S, as in Sam, p as in Peter, r-a-g-u-e,
from Covington & Burling on behalf of GitHub.
And I would like to introduce my colleagues, Alex
Berengaut and Megan Crowley, who are also in the
hearing.
And Mr. Berengaut intends to argue the motion. He
also has a pro hac vice motion pending, which the
tentative is to grant.
And I’ll turn it over to Alex.
THE COURT: Yeah, and the reason I was hesitating is I did receive Mr. Berengaut’s application, pro
hac application, and Ms. Crowley’s.
I did not receive, Mr. Robbins, your application, but
I’ll [3] allow — so I don’t know where it is, ha. But I’ll
certainly allow you to argue the matter this morning.
If you haven’t actually filed any application, or if it
somehow got lost in the bowels of the filing system
here, I apologize. But why don’t you submit it if it
hasn’t previously been submitted at the close of the
hearing. And I’ll assume that you are qualified to
appear in this court.
MR. SEARCY: Thank you, Your Honor. This is
Marshall Searcy. Just to interrupt Mr. Robbins, the
pro hac application was filed on June 29th; so it
appears to have been lost in the bowels of the system.
THE COURT:

All right. Fair enough.

THE CLERK: It didn’t get hearing date, Your
Honor. So we’ll have to look for papers and see if we
can un-review it.
THE COURT:

Thank you, ma’am clerk.

44a
The only other thing I would add here, although I’m
not going to particularly stand on ceremony in this
regard, Mr. Robbins, is that you did not timely contest
the tentative ruling, as required by the tentative, by
the local rules, and by the Rules of Court. But since
opposing counsel is here and everybody apparently
wants to be heard, I’m not gonna preclude you from
arguing the motion.
MR. ROBBINS: Thank you, Your Honor. I apologize. I just was not aware of the tentative ruling before
at the time, it was necessary. So I responded in contested as soon as I was aware of it.
THE COURT: All right. So I guess my question
initially to you is . . . you know, we have this O’Grady
case, which, of [4] course, is binding on me as a trial
judgment.
And which says, quite explicitly:
“A subpoena is not enforceable if compliance would violate the SCA,” referring to the
Stored Communications Act. “Any disclosure
violates the SCA unless it falls within an
enumerated exception to the general
prohibition.”
So I don’t see an argument in your papers that any
enumerated exception under the Stored Communications Act applies here. It seems to me that’s the end of
the analysis.
Where did I go wrong?
MR. ROBBINS: Well, Your Honor, first, our opposition is that there really isn’t controlling California
authority on the question of whether the Stored
Communication Act blocks the subpoena like ours,
which is in a criminal proceeding.

45a
I mean, to start with, just the California Supreme
Court has never squarely ruled that the SCA
blocks a criminal defendant’s subpoena for private
communications.
THE COURT: It doesn’t matter; if the Court of
Appeal has done so, I’m bound by that decision under
the Auto Equity Sales case.
MR. ROBBINS: So, in terms of O’Grady, the
issue — our issue with O’Grady is that, for one thing,
it addresses purely civil litigation, not a proceeding of
a criminal nature like ours;
And, secondly, and perhaps more importantly,
O’Grady just doesn’t address the binding Supreme
Court doctrine that requires courts to avoid reading
statutes in a way that create [5] evidentiary privileges
that simply block legal process.
THE COURT: Well, I’ve read that whole argument
and it’s very interesting and creative; and it’s apparently based, in part, on some forthcoming law review
article. But this is not a law school debate; I am bound
by California authority.
And you may think, and it seems to me the
implication of your argument is that O’Grady was
wrongly decided.
You may or may not be proven right, but I’m bound
by it.
So the only part of your argument that carries any
weight here is the argument that O’Grady didn’t
address criminal subpoenas, as opposed to subpoenas
in civil litigation.
But it seems to me . . . first of all, I’ve cited to you
some federal authority for the proposition that every
court in the country to consider the issue has

46a
concluded that the general prohibition on disclosure
of the contents of covered communications under the
Stored Communications Act does apply to criminal
defendants’ subpoenas;
And, second of all, and more broadly, it seems to
me that the entire rationale of O’Grady applies equally
to criminal subpoenas as it does to civil subpoenas.
MR. ROBBINS: If I may, I guess, just . . .
respectfully in terms of O’Grady, I just would add
that when that issue was there, no one briefed our
privilege issue; and so, you know, the litigants who
don’t contest those rulings, you know, waive them.
And so that’s why it’s very different from our
proceeding where we have raised the issue.
But, in going further, I think if you’re referring to
Wint, which I think is what the tentative ruling
also cites, I [6] mean that is not controlling — it’s also,
I don’t believe, federal; I think it’s from the D.C.
Court of Appeals, the highest sort of state court, as it
were, out of D.C.
THE COURT: You’re right. Thank you for the correction. Although it does cite federal authority from
across the country.
MR. ROBBINS: But, if I may, I would say that
Wint isn’t persuasive for a couple reasons.
I mean the ruling sort of briefly acknowledges some
of the Supreme Court precedent that is in our favor,
a case like such as Baldrige versus Shapiro, but it —
I guess our response to that, to Wint is two:
One is that it misinterprets Baldrige as saying
courts can basically find implied privileges in statute;
and so we – we cite in our reply, in response to that,
cases like the Ninth Circuit rulings Zambrano, and

47a
the Eleventh Circuit ruling In re Nelson, which
correctly read Baldrige as a case that dealt with a
statute that dealt with an explicit privilege.
I mean there the statute, unlike the SCA here,
said that the protected information, quote, “shall be
immune from legal process.”
And there the Supreme Court held the statute
explicitly provided for non-disclosure.
There’s simply no such explicit language here that
makes it — this case like Baldrige.
And I guess our second position is that even if the
Court were to accept that the Court of Appeals in
D.C. correctly read Baldrige to say that a privilege
can be implied, that reading [7] wouldn’t block our
subpoena because, again, the circumstances of
Baldrige, they’ve recognized an extremely narrowed,
implied privilege.
And when the statute, unlike the statute here, said,
explicitly, information would be immune from legal
process;
And, furthermore, the statute there, unlike the statute here, barred all disclosures with zero exceptions
except for returning information to its source. And the
Supreme Court there relied on that to say that that
statute was explicit congressional intent to preclude
all disclosure.
But the SCA here just doesn’t have the necessary
language that — that shows it’s a explicit privilege;
It doesn’t talk about discovery, which Congress can
very well do and it has done;
It also has lots of disclosures, which shows that
Congress wasn’t trying to block all disclosure in the

48a
way that Baldrige was and that, you know, therefore
Wint’s reading of the precedent isn’t persuasive, and
it’s certainly not controlling authority.
THE COURT:

Let’s back up a step.

Before we get to your . . . novel privilege argument,
you know, normally speaking, when one looks at a
statute, we look at statutory language first.
Is there an enumerated exception under the Stored
Communications Act to the rule that service providers
may not disclose the contents of stored messages that
you contend applies here?
Or is your argument rather that there doesn’t need
to be [8] an enumerated exception because of this
argument that you’ve just made that somehow a court
has to conclude that Congress didn’t intend the SCA
to apply in this context?
MR. ROBBINS: I think — I mean we don’t point
to a specific enumeration that encompasses it, but
we do — I mean this is the rule — we don’t necessarily
start with the language; we start with the proposition
from Supreme Court doctrine, from cases like St. Regis
Paper; Baldrige;
And Pierce v Guillen, that’s —
THE COURT: No, no, I’m going to interrupt you. I
asked you a specific question: Do you contend that
any specific enumerated exception under the SCA
applies here?
Yes or no.
MR. ROBBINS: Well, there’s — there is no enumerated one that clearly permits it but, at the same
time, there’s no express provision that clearly blocks
it either.

49a
THE COURT: All right. I guess I have a practical
question here too. I mean, in all candor — I mean I’ll
hear from Mr. Berengaut.
In all candor, I’m not persuaded by your argument,
but the practical question I have here is what’s really
going on here?
I mean if I understand the papers, the . . . the
software company — you know, GitHub here is
basically kind of caught in the middle; they’re just
a service provider that happens to host this software
source code and other materials for their clients,
and I’m forgetting the name of it. It’s . . . What’s the
name of — oh, ESR, which, as I understand it, [9] is
based in New Zealand and Australia or something . . .
as I understand the papers here, ESR has in the past
made available the source code, subject to a nondisclosure agreement that your office entered into
and — or at least that folks representing other
criminal defendants entered into.
And for some reason, which nobody has illuminated
for me here, you’re not willing to get the source code
directly from its source, that is, from ERS, because
you’re not willing to enter into the non-disclosure
agreement.
And I guess I’m perplexed at why not. What is going
on here that you all haven’t told me?
MR. ROBBINS: Just sort of . . . if I may, if right —
our office has never entered into an NDA with ESR.
Our expert has, in unrelated cases, completely — you
know, having nothing to do with us.
And, again, I’ll answer the Court’s question, but I
guess I would just sort of preface it with saying that,
you know, as far as the enforcement of a subpoena, you

50a
know, it’s been, you know — we have a certificate
showing its material and necessary by a court who’s
aware of the full, you know, factual goings on and has
been part of it, with us.
And that there’s no sort of, you know — you know,
absent a showing, like GitHub’s showing that this
imposes an undue burden on them, they don’t —
I mean this sort of factual background isn’t particularly at issue or relevant to the Court’s ultimate
finding of whether the subpoenas should be enforced.
But — I mean the history is that . . . ESO — we
initially [10] spoke to ESR about trying to do this;
They offered a — that they would review this
information under the terms of a non-disclosure
agreement;
There was several provisions that we thought were
onerous and unnecessary. So we asked our court, that
we’re in front of, to issue a protective order that would
deal with the issue at safeguarding ESR’s proprietary
information but deal with our concerns.
So there’ve been — the concerns that sort of remain
outstanding and at issue is that ESR refuses to let
our court, the court that they sold the software for,
used in Texas courts and in criminal proceedings, but
they are refusing to let those same courts govern the
adversarial scrutiny that their products should
receive.
And by that I mean the court heard from them,
heard their concerns, heard what they wanted in a
protective order, and the court granted a bunch of it
but not everything that they wanted, particularly
what they wanted that remains a sticking point is they
want both the non-disclosure agreement to grant them

51a
a right of private civil action, separate and apart
from our — from our case in courts separate to us. And
they — they were also asking, I think, for our expert
to make certain you know, concessions about that,
that litigation, and grant, you know, venue in, you
know, in another state, but I think — it’s just that
it’s a separate court.
In our view, it is unnecessary. The Texas court
found it unnecessary. In our view, it is basically a way
for them to get extra leverage and harassment on one
of the few experts [11] that is providing independent
scrutiny for their product.
So they have — their secrets, their privacy concerns,
which are the core of the SCA, are guarded and are
not at issue in this case, because the Texas court has
granted a protective order, which this court has before
it, attached to the Texas court certificate.
So, at this point, our expert, for the reasons stated
in his declaration, attached to our reply, is not willing
to sign that non-disclosure agreement for several
reasons that he recites; and so that avenue, that
alternate avenue is not simply open and available to
our client.
THE COURT: All right. Anything else you want to
add on — going back to the merits of the tentative
ruling?
MR. ROBBINS: Well, I guess I just would like to,
just to add that, in addition to our, you know, reliance
on the Supreme Court doctrine that asks or tells courts
to construe the statutes like this narrowly, just as
there’s also a constitutional basis for enforcing our
subpoena.

52a
And that’s — you know, in addition to cases like
Pennsylvania versus Ritchie, which find that there’s a
due process right to production of material evidence,
there’s cases that — basically GitHub’s interpretation
of the statute creates a due process violation; it creates
a fundamentally unfair imbalance because, according
to them, the statute would give the records we’re
seeking to law enforcement but they won’t give it to us.
And that’s precisely the kind of fundamentally
unfair imbalance that the Supreme Court has said
violates due process [12] in cases like Wardius versus
Oregon, and Washington versus Texas.
So I guess, just to conclude, you know, given all the
circumstances here, the fact that there’s Supreme
Court precedent that supports our position;
There’s a lack of binding precedent in California
that blocks the subpoena that clearly, squarely falls in
these circumstances;
The fact that a Texas court has found that these
records are materially necessary to a death penalty
case in Texas;
And that that court issued a protective order that
basically deals with the privacy concerns that are at
issue, we would respectfully ask this court to enforce
this subpoena.
THE COURT:

Thank you. Mr. Berengaut?

MR. BERENGAUT:
briefly.

Thank you, Your Honor. Very

We don’t have a lot to add to the tentative ruling,
Your Honor.
O’Grady is directly on point and dispositive of the
SCA argument that Mr. Colone makes.

53a
Just to respond to his constitutional argument,
there are two problems with it.
THE COURT:
go on to that . . .

Well, hang on just a sec, before you

MR. BERENGAUT: Yes, Your Honor.
THE COURT: He makes the point that O’Grady
only dealt with a civil discovery subpoena, and that
what we’re dealing with here is obviously a postconviction subpoena in the context of a criminal case.
[13] Does that make a difference?
MR. BERENGAUT: No, Your Honor, for three
reasons.
First, this — the underlying post-conviction proceeding here is a civil proceeding, not a criminal one,
as matter of California law;
Second, even if you did —
THE COURT: Well, wait a sec. A post-conviction
— this is a habeas proceeding; right?
MR. BERENGAUT: Yes, Your Honor.
THE COURT:

That’s a civil proceeding?

MR. BERENGAUT: Yes.
THE COURT: And how does California law have
anything to say about what kind of proceeding it is?
It’s proceeding in Texas; it’s not proceeding in
California; right?
MR. BERENGAUT: Yes, Your Honor.
But if the question is whether O’Grady, by its terms,
applies to this specific subpoena —
THE COURT:

Right.

54a
MR. BERENGAUT: — that question depends on
whether, as a matter California law, this subpoena is
civil or criminal. And the fact that habeas —
THE COURT: A post-conviction habeas proceeding brought by a convicted criminal defendant is a
civil proceeding? Doesn’t that strike you as odd?
MR. BERENGAUT: Your Honor, habeas is a — is
an odd creature that has elements of both criminal
and civil law to it. And as a formal matter, in
California, it is treated as a civil proceeding.
[14] But there’s no need to rule on that basis,
because even if you construed this particular subpoena as a defendant’s subpoena, that . . . the
rationale of O’Grady would still apply by its terms,
which doesn’t depend on the particular form of the
subpoena; it depends on whether the particular
instrument falls outside the enumerated exceptions
in 2702, which this — which this does. There is no
applicable exception here.
And apart from that —
THE COURT: That’s certainly what I . . . at least
understood counsel to admit, a couple of minutes ago,
when I was asking him that question.
MR. BERENGAUT: Yes, Your Honor.
And then, lastly, Your Honor, as you noted, they’re
cited in the Wint case but there are cases where
precisely defendants’ subpoenas have been litigated in
this context.
And the holding there was the same as in O’Grady;
the conclusion was a defendant’s subpoena, like a
civil litigant’s subpoena, doesn’t fall within an express
exception, and so cannot be sustained under the SCA.

55a
THE COURT: All right. Why don’t you go on. You
were — I interrupted you, and you were about to
address the constitutional argument that Mr. Robbins
ended with.
MR. BERENGAUT: Yes, Your Honor. I was just
going to mention that there too Wint surveys the law
on that, and notes correctly that that constitutional
argument has been uniformly rejected. Although, as
the Court pointed out, the SCA has been on the books
for more than thirty years.
The notion that there is an asymmetry between
the tools [15] available to the prosecution and the
tools available to the defense is unremarkable. Lots of
aspects of the criminal justice system give tools, some
tools to the prosecution and other tools to the defense.
And that’s never been found to be a fundamental due
process violation, as those courts have recognized.
THE COURT: Well, in any event . . . I mean if
in fact I am bound O’Grady, under these circumstances, it’s not clear to me that I either can or should
reach any constitutional issues.
MR. BERENGAUT: Yes, Your Honor; we agree.
THE COURT: All right. Mr. Robbins, any rebuttal?
MR. ROBBINS: Yes, thank you, Your Honor.
I guess, just in turn, the — it is — I think that the
Court, I think . . . intuited or understands this already,
but I think the case law makes very clear our
underlying case in Texas is not a civil proceeding.
Texas law treats habeas primarily as criminal proceedings. We cite Ex parte Smith in our reply, basically
saying that.

56a
California has similarly sort of refused to treat
habeas proceedings as civil, and we cite People v
Duvall in our reply basically showing that the court
has refused — because it doesn’t seem an apt analogy,
a civil — refused to apply habeas matters — or civil
rules of pleadings to habeas procedures.
And there’s a long line of cases, including Supreme
Court cases like Harris v Nelson that also say that
that’s just not a fact.
So we . . . strongly disagree with any characterization or attempt to mislabel our case as civil. And,
likewise, disagree [16] with any suggestion that we
fall outside the clear language of 33.14, or 3314 of the
California Penal Code, which codifies the Uniform Act.
It’s very clear that it applies to dealing with
witnesses in criminal actions, prosecutions, and
proceedings.
And I think the California Penal Code, which
establishes habeas proceedings and describes them
as special proceedings of a criminal nature, shows
that we are — that a habeas proceeding, even in
California law, not just Texas law, it is a criminal
proceeding.
So I think we — this falls squarely within what
3314 authorizes subpoenas for.
As far as this constitutional, any asymmetry that
the Constitution may permit, it ends, though, I think,
when you are dealing with records that have been
found to be both material and necessary.
That’s when the Courts step in and say, we will not
permit that imbalance. And that’s why you get the
outcome like you did in Texas v Jackson and Wardius.

57a
I guess I’d also add that the Eighth Amendment,
that this — I don’t think Wint cites capital law because
Wint was — there’s no death penalty in D.C.; so the
Eighth Amendment, because this is a capital proceeding, the Eighth Amendment demands heightened
scrutiny and extra-liable proceedings and that that
is a further reason that requires this material and
necessary evidence to be available to the Court,
assessing our client’s death sentence.
So that’s a further constitutional basis that Wint
doesn’t [17] address.
THE COURT: All right. This motion or application
raises a variety of interesting issues. I don’t find it
necessary to decide most of them, in view of my view
that I am bound by the Court of Appeal’s decision in
O’Grady here.
In light of the fact that there is no applicable — as
the applicant concedes, no applicable exception to
these stored Communication Act prohibition on
disclosure, that’s the end of it. The subpoena is not
enforceable. And it seems to me that the applicant’s
argument is really an argument that O’Grady was
incorrectly decided.
Whether it was or it wasn’t, it is binding on me as a
Superior Court judge; and therefore I am adopting the
tentative and denying the motion to compel.
Thank you.
MR. BERENGAUT: Thank you, Your Honor.
MR. ROBBINS:
MR. SEARCY:
(10:03 a.m.)

Thank you, Your Honor.
Thank you, Your Honor.

58a
[18] STATE of CALIFORNIA
COUNTY of SAN FRANCISCO

)
)
)

I, MARIA ANTONIA TORREANO, DO HEREBY
CERTIFY:
That the foregoing is a full, true and correct
transcript of the testimony given and proceedings
hereinbefore entitled;
That it is a full, true and correct transcript of the
evidence offered and received, acts and statements of
the court, also all objections of counsel and all matters
to which the same relate;
That I reported the same in stenotype to the best
of my ability, being the duly-appointed, qualified and
official stenographic reporter of said court, and thereafter had the same transcribed, as herein appears.
DATE: August 11, 2020
/s/ Maria A. Torreano [stamp]
Maria A. Torreano,
CSR, CRR, RMR, CCRR
Certificate No. 8600
Goverment Code §69954(d): “Any court, party or
person who has purchased a transcript may, without
paying a further fee to the reporter, reproduce a copy
or portion thereof as an exhibit pursuant to court
order or rule, or for internal use, but shall not otherwise provide or sell a copy or copies to any other party
or person.

59a
IN THE COURT OF COMMON PLEAS
SUMMIT COUNTY, OHIO
[Filed March 11, 2021]
————
Case No. MS-2020-00-0011
————
In Re: Joseph Colone,
APPLICANT FOR SUBPOENA
————
ORDER ON APPLICANT’S OBJECTIONS
TO MAGISTRATE’S DECISION
Upon due consideration of Applicant’s Objections to
the Magistrate’s Decision, this court hereby rejects the
findings asserted in the Magistrate’s Decision filed on
February 18, 2021 and denies the movant’s Motion to
Quash Subpoena filed on March 18, 2020 and Motions
to Strike filed on November 2 and 6, 2020.
The movant is ordered to comply with the
applicant’s subpoena served on February 24, 2020 and
produce the STRmix source code for review by Mr.
Colone’s expert pursuant to the terms of the Protective
Order issued on November 21, 2019 by the 252nd
District Court of Texas, Jefferson County, at a date
and time agreeable to both parties to this action.
IT IS SO ORDERED
/s/ [Illegible]
PRESIDING JUDGE
COURT OF COMMON PLEAS
SUMMIT COUNTY

60a
STATE OF OHIO
)
)ss:
COUNTY OF SUMMIT
)
————
IN THE COURT OF APPEALS NINTH
JUDICIAL DISTRICT
————
C.A. No. 29960
————
IN RE JOSEPH COLONE,
Applicant for Subpoena
————
MAGISTRATE’S ORDER
Pursuant to Local Rule 16 and upon recommendation of the Mediation Attorney, this appeal has been
identified as appropriate for a pre-mediation telephone conference.
A pre-mediation telephone/video conference is
scheduled for Friday, May 14, 2021, at 11:00 am.
The Mediation Attorney has provided contact
information for the conference. If notice was not
received, contact the Mediation Attorney at (330) 6436452.
Based on a recommendation from the Mediation
Attorney, the parties’ briefing schedule is temporarily
stayed. A new briefing schedule will be ordered, if
necessary, at the conclusion of the mediation process.
/s/ C. Michael Walsh
C. Michael Walsh
Magistrate

